CERTIFICATE OF SERVICE
NO. 19-62
Michelle Carter
Petitioner(s)
v.
Commonwealth of Massachusetts
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
MICHELLE CARTER REPLY BRIEF OF PETITIONERS, by mailing three (3) true and correct copies of the
same by USPS Priority Mail, prepaid to the following address:
Elizabeth Napier Dewar
Office of the Massachusetts Attorney General
One Ashburton Place
Boston, MA 02108
(617) 963-2204
bessie.dewar@mass.gov
Counsel for Commonwealth of Massachusetts

Lucas DeDeus

December 6, 2019
SCP Tracking: Marx-24 Federal Street, 4th Floor-Cover Tan

